                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

  Case Number: A09040025                                                                      Page 1 of 1



                 OIG conducted an inquiry into an allegation that the Subject 1 submitted an NSF proposal
          containing copied text. During the inquiry we identified copied material in two NSF proposals. The
          Subject's response to our inquiry did not dispel the allegation, and we referred the matter to the
          Subject's institution for investigation.

                  The University concluded, based on a preponderance of the evidence, that the Subject
          recklessly committed plagiarism, deemed a significant departure from University practices, and
          took actions to protect the University's interests.

                 We adopted the University's findings. We concluded, based on a preponderance of the
          evidence, that the Subject recklessly committed plagiarism, deemed a significant departure from
          accepted practices, and recommended actions to be taken to protect the federal interest. The Deputy
          Director concurred with our recommendations.

                  This memo, the attached Report oflnvestigation, and the Deputy Director's letter constitute
          the case closeout. Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
CONFIDENTIAL                                                                                                                             CONFIDENTIAL




              National Science Foundation
              Office of Inspector General




                        Confidential
                   Report of Investigation
                  Case Number A09040025
                                   January 18, 2011
                      ,..   ··..   :.:; ·:.: ·. ,. ·. :. .   . .· ·.'· .   . '·:~·.   ·:·-.;           :::(·.·   ;··:   .    .:,·   .,

   . ', ...      this'CQnfidential Report' ofl~vestigition is ptovid~d tQ );OU .· . . :.
                                   ..     ::~:FoROFFlCfALUSEOJVLY.             , ....          , -:·
. It contai.ris protected personal iilfonnation,_ the unauthorized disclosure crt' which may result ill:
 . per~onal cri~in'alliability under thel)rivacyAc(sU:s,c.: § 552a. Thisr~po1t may be further.
                                            to.
 · disclos~cl wiihin NSF only .indhrjduals V{ho .must hEwe knowledge of its·.. contents .to
·. faCilitate NSF's· assessment'an.d: resolution ··of this inatter: ...This report ·may be. di~closed
   outside NSFonly'i.mder the Freedom offuformation and Privacy Acts; 5 U.S.C. ·§§ 552 &
  '5S2a. Please take appropriate precautions handling this confidential repo1tof investigation:·. ·

                                                                                                                            NSF OIG Fom122b (11/o6)
CONFIDENTIAL                                                                        CoNFIDENTIAL



                                       Executive Summary

Allegation:       Plagiarism.

OIG Inquiry:      OIG identified three somces from which approximately 73 lines, one figure and
                  10 embedded references were copied into two declined NSF proposals.
                  OIG referred the matter to the Subject's home institution.

University's     The University concluded, based on a preponderance of the evidence, that the
Investigation    Subject recklessly committed plagiarism, deemed a significant departure from
and Action:      University practices.

                 The University sent the Subject a letter of reprimand and required he cancel his
                 upcoming sabbatical; write apologies to his former student and NSF program
                 officers; attend an ethics training course and complete RCR certification; design
                 a research integrity and plagiarism workshop for University faculty and
                 researchers; resign from activity with University affiliated-research, to include
                 panel membership, conference attendance, and any role on current or pending
                 prop9sals and grants, for two years; not participate in any state or federally'
                 funded research activities for two years; not mentor or advise graduate students ·
                 for two years; and teach four courses for the following tbiee semesters and three
                 courses for the fourth semester.

OIG
Assessment:
                • The Act: The Subject plagiarized 73 lines, one figure, and 10 embedded
                  citations, from three sources· into two proposals.
                • Intent: The· Subject acted recldessly.
                • Standard of Proof: A preponderance of evidence supports the conclusion that
                  the Subject committed plagiarism.
                • Significant Departure: The Subject's plagiarism represents a significant
                  departure from accepted pr1.)-ctices.
                • Pattern: No pattern, outside of the two NSF proposals, was established.

OIG
Recommends:
                • Make a finding of research misconduct against the Subject;
                • S.end the Subject a letter of reprimand;
                • Require certifications from the Subject for a period of one year after University
                  action;
                • Require assurances from the Subject for a period of one year after University
                  action;
                • Bar the Subject fi·om serving NSF as a reviewer for one year; and
                • Require certit1cation of attending an ethics class within one year.




                                                1
    CONFIDENTIAL                                                                            CONFIDENTIAL



                                                 OIG's Inquiry

            Our office received an allegation that a PI 1 (Subject) included plagiarized material in his
    NSF proposal (Proposall 2). We reviewed Proposall and another proposal he submitted as PI
    (Proposal2). 3 We determined that the proposals contained 73 lines, 1 figure, and 10 embedded
    citations, copied from 3 source documents, as indicated in the following chart:

                    Source                           Proposal 1                    Proposal2
                                                     (Declined)                    (Declined)
              A (Ph.D. Thesis)        41 lines; 1 figure; 10 embedded references
              B (Article)                                                                21 lines
              C (Article)                                                                11 lines
              Total Lines
              (UNIQUE)                41 lines; 1 figure; 10 embedded references         32 lines

        We contacted the Subject regarding the allegation. 4 In his response/ he aclmowledged
the copied material and took responsibility for the plagiarism, but said he did "not see that
anybody's ideas were misused" as the annotated matetial consisted only of background or
common procedural material. 6 Regarding Proposall, he said Source A was a former .student's
(Student 17) Ph.D. thesis and that "[Student 1] gave the [specific] 8 code and the description to
our modeling group. " 9 Another student (Student 2 10), "a junior member and former PhD [sic]
student": ·

                   inserted the model description. . . . I never even questioned the
                   matmial since I had for years instructed my students to be careful
                   and alter the language slightly to avoid just the current problem.

                  Then on the NSF proposal, [Student 2] opted out of being a Co-l
                  [sic] due to many other commitments. [Student 2] was to be an
                  unfunded investigator. I took the [code] 11 write up and inserted it
                  in the NSF proposal.




  Tab B, Inquiry Letter.
5
  Tab C.
6
  Tab

                           "the Code," an acronym for


    IIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIIHeisnamed~
co-PI on Proposal2; he is neither PI nor Co-PI ofProposal-1.
11
   The Code.   ..


                                                        2
 CONFIDENTIAL                                                                                       CoNFIDENTIAL



                   [Student 1] gave the code and supporting material to [Student 2]
                   and [Student 1] should have been acknowledged in the proposal. 12

 The Subject however said he included tbis material in Proposal 1 and "should have rewritten the
 [code] 13 description." 14

       Regarding Proposal2 and Somces Band C, the Subject cited "sloppy practices that
occurred in the rush to get the proposals out the door." 15 He said different group members
(graduate students) cut and pasted material without proper citation, and that plagiarism would
have been avoided if "quotes were used for the 'holding material' ." 16 He concluded:

                   Our proposal was unique and challenging, and we were not
                  duplicating anybody else's work. Nevertheless, sections from.
                  other works clearly were used improperly (should have been
                  quoted or just rewritten), and I, as PI, have to take responsibility
                  for tlus oversight, regardless of how it occurred or by whom. All
                  we can do at this stage is to apologize to NSF and to the authors of
                  the papers and take steps to prevent any such occurrences in the
                  futme. 17

        OIG deternlined the Subject's response did not dispel the aUegation. First, text copied
verbatim without quotations or a reference to the source, into any section of a proposal, is
plagiarism. Second, the Subject provided no proof that Student 1 voluntarily provided the
description; in fact, Student 1 stated:

                  To my surprise I found that the description that they wrote for the
                  model they'll use [the code] 18 came right out from my
                  dissertation ... and also a Figure 1.1 is used in the proposal ...
                  But I didn't fmd the right ackndwledgment ofthe source for the
                  figure, or for the text ... I haven't provided this figure or the text
                                      19
                  to the .Pis either.

We therefore detennined there was sufficient substarlce to the allegation and referred the
investigation to the Subject's Institution? 0




12
   Tab F, Letter 2, pg 1.
13
   The Code.
14
   Tab C, pg 4.
15
   Tab c, pg 3.
16
   Tab C, pg 3.
17
   Tab C, pg 4.
18
   The Code.
19
   Tab A, email dated April2, 2009. OIG interviewed                            on August 18, 2010, via telephone,
dming which she reiterated she had not directly provided her dissertation or code to the Subject or his laboratory
(Tab K).
20
       1                               Tab D contains the referral letter.


                                                          3
 CONFIDENTIAL                                                                                     CONFIDENTIAL




                                   University Inquiry and Investigation

         Consistent with University ~olicy, 21 the Vice President for Research (VPR) appointed a
                                                                                                  22

 Preliminary Action Officer (PAOi to conduct a preliminary inquiry. The PAO concluded,
 "there was 'reasonable cause' to believe that plagiarism had occurred."24 The Subject had "no
 comments to make"25 in response to the PAO's conchision.

        The VPR then appointed an ad hoc investigating Committee (Committee) to conduct the
investigation. The Committee reviewed documents NSF and University employees provided and
produced an Investigation Report (Report). 26

        Based on the Subject's own statements, the Committee concluded, by a preponderance of
the evidence, that the Subject committed plagiarism, an act constituting a significant departure
from accepted practices of the relevant tesearch community. The Committee relied on policy
statements from the Universitr' s Faculty Handbook to establish the accepted practices of the
relevant research community. 7

        Regarding intent, the Committee detennined the Subject's action "showed a pattern of
recldess writing practices[,] not merely a careless mistake." 28 Its conclusion was based on the
Subjecfs statement "that some sentences were placed in the early stages of the proposal
preparation for consideration intended as place-holders, but without quotes." 29

         fu conclusion, the Committee stated:

                  It is the belief of the committee that this statement indicates a lack
                  ofunderstanding of the definition of plagiarism and that simply
                  'rewording' or 'altering the language slightly' does not remove the
                  plagiarism. The committee is concerned that students, junior
                  faculty members, and co-investigators have been provided with
                  insufficient guidance on ethical standards for scholarly work. 30

The Committee recommended sanctions restricting the Subject in his University capacity and
requiring plagiarism education. 31             .



21
22
23
24
   Tab E, Letter 1.
25
   Tab B, Letter 2.
26
   The committee clid not interview the Subject who was out of the country during the investigation. The VPR
however interviewed the Subject prior to University adjuclication.
27
   Tab F, Report.
28
   Tab F, Report, pg 4.
29
   Originally in Tab C, quoted in Tab F, Report, pg. 4.
30
   Tab F, Report, pg 3.
31
   Tab F, Report.


                                                        4
 CONFIDENTIAL                                                                             CONFIDENTIAL




                                        University Adjudication

          The VPR received the Report, interviewed the Subject, and concluded:

                   I believe he shows almost no understanding ofthe seriousness of
                   the allegations against him, and displays an unwillingness or
                   inability to take personal responsibility for the integrity of his
                      .         32
                   actwns, ...

He continued:

                   [The Subject] cannot possibly instill in his students a level of
                   professional or ethical standards that he himself is unwilling or
                   unable to demonstrate. 33

Lastly,
                   [the Subject's] writings and actions do not indicate that he
                   comprehends the extent to which his actions reflect upon, and put
                   at risk, the entire research enterprise at [the University] ... [the
                   Subject] either does not appear to understand or does not appear to
                   care, about the extent to which his ~ctions reflect upon the entire
                   University research enterprise. 34

The VPR recommended the Subject be separated from the UniversHy in order to display the
University's commitment to ethics and integrity in research. 35 However, the VPR provided
alternate sanctions such as prohibiting the Subject from all funded research for two years;
requiring he step down as PI on any current grants, withdraw from any pending proposals, and
cease acting as a graduate student mentor; assigning him a maximum course load for the next
two years, and requiring attendance at and teaching of a plagiarism workshop? 6

       The Provost37 reviewed the Report, its attachments, and the VPR's recommendations, and
reconunended the Subject:

          •   receive a letter of reprimand to remain in his personnel files;
          •   lose pending sabbatical privileges;
          •   write an apology letter to his fonner student and cognizant NSF program officers;
          •   attend an integrity and plagiarism workshop on his own funds and complete
              responsible conduct of research (RCR) certification within four weeks;

32
   Tab G, Letter 1, pg 2.
33
   Tab G, Letter 1, pg2.
34
   Tab G, Letter 1, pg 2.




37··········
35
   Tab G, Letter 1, pg 3.
36
   Tab G Letter        3.



                                                    5
 CONFIDENTIAL                                                                           CONFIDENTIAL



          •     design and provide a research integrity and plagiarism workshop for all University
              · faculty and researchers;
          •     be prohibited from all University-affiliated research for a two-year period, to include
                participation in panel discussions, advisory panels, attendance and presentations at
                conferences, and serving as a PI, co-PI or in any research capacity on proposals or
                grants;
          •     be prohibited from participating in any federal or state funded research activities for
                two years;
          •     be prohibited from mentoring and advising graduate students at his University for two
                years; and
          •     be assigned to teach four courses for the next three academic semesters and three
                courses for the fourth semester. 38

The VPR gave the Subject the option to accept these actions or have a Faculty Hearing Panel
review the matter. The Subject accepted the Provost's actions. 39


                               OIG's Assessment ofthe Investigation and Report

       The Institution provided OIG with its report and investigation material. We provided the
Subject with an opportunity to comment. 40 The Subject chose not to respond.

        OIG assessed the report and the supplementary documents for accuracy and
completeness, and found the Repo1t to be accurate and complete. The University followed
reasonable procedures in conducting its investigation, and produced an acceptable evidentimy
record. We therefore adopted its findings, and accepted the report in lieu of conducting our own
full investigation.

        We noted, however, that the Committee did not examine any of the Subject's other
proposals or publications, but rather concluded the Subject's plagiarism constituted a pattem of
plagiarism based on the two NSF proposals. We examined other documents the Subject
authored. We fowid that the Subject sublnitted 31 proposals to NSF from 1982 to 2009. Though
his earlier proposals (1982-1992) were submitted without co-Pis, the more recent proposals
(1994-2009, excluding a 1996 and a 1998 proposal) either have co-Pis or na111e the Subject as
co-PI. As such, we found the Subject'has no recent proposals on which he is sole PI, meaning
none in which copied materi~ could be attributed directly to him. Silnilarly, although the
Subject has authored more than 100 publications,41 he is generally neither their leading nor sole
author. We examined two ofhis recent publications42 and did not identify copied text.

38
   Tab G, Letter 2, pgs 1-2.
39
   Tab G, Letter 2, pg 3.
40
   Tab J.
41
   See Tab L ·




                                                    6
 CONFIDENTIAL .                                                                        CoNFIDENTIAL




                                           OIG's Assessment

        A ftnding of research misconduct by NSF requires (1) there be a significant departure
 from accepted practices of the relevant research community, (2) the research misconduct be
 committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
 preponderance of the evidence. 43 ;                        ·


                                                The Acts

        The University concluded the Subject plagiarized nearly two and a half pages of text: 73
lines, 10 embedded citations and one figure from three source documents (one dissertation and
two miicle publications) into two proposals, an act deemed a significant departure from accepted
practices of the University. OIG concurs with the University's assessment.



       Based on the Subject's assertions that Student 2 inserted Somce A material and that
graduate students inserted Source B and C material without citation as "holding material,"44 the
University concluded the Subject acted recldessly in plagiarizing materi.al into Proposals 1 and 2.
We concur with the Committee's assessment.

                                          Standard o(Proo(

       The University made its determination based on a preponderance of the evidence. We
concur with the Committee's assessment.

       OIG concludes the Subject, by a preponderance of the evidence, recldessly plagiarized,
thereby committing an act of research inisconduct. 45                      ·


                                 OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: ·

                 (1) How serious the misconduct was; (2) The degree to which the misconduct
                 was knowing, intentional, or reckless; (3) Whether it was an isolated event or
                 part of a pattern; (4) Whether it had a significant impact on the research
                 record, research subjects, other researchers, institutions or the public welfare;
                 and (5) Other relevant circumstances. 46


43
   45 C.P.R. §689.2(c).
44
   Tab C, pg 3.
45
   45 C.P.R. part 689.
46
   45 C.P.R.§ 689.3(b).


                                                   7
     CONFIDENTIAL                                                                                       CONFIDENTIAL




                                                        Seriousness

         The Subject's actions are a violation of the standards of scholarship and the tenets of
 general research ethics and those within his research community. First, the extent of the
 plagiarism -73 lines, one figure, and ten embedded references, from three sources into two
 declined proposals- is substantive. Second, the copied text served to misrepresent the Subject's
 body of knowledge and prior research experience, inaccurately portraying the proposals'
 respective merit to the reviewers.

                                      Degree to liflhich Action was Reckless

         OIG finds that the Subject acted recklessly. The Subject acknowledged his proposals
 contained inadequately cited material. A reasonable person is expected to know that using
 verbatim text without demarcation and representing work he did not complete as his own is not
 acceptable. Fmther, inserting the work of students in a proposal bearing yam name and for
 whom you are responsible without first carefully examining their work product is characteristic
 of a reckless act. We therefore :find the Subject's actions to be inherently reckless.

                                                         Pattern

          0 I G and the University did not establish a pattern of plagiarism, outside of Proposals 1
and2.

                                            Impact on the research record

          There is no evidence of any impact on the research record as a result of the plagiarism.

                                                  Recommendation

Based on the evidence and sm1ctions already imposed by the Subject's institution, OIG
recommends NSF:                            ·

      •   Send a letter of reprimand to the Subject informing him that NSF has made a finding of
          research misconduct; 47
      •   Require the Subject to certifY to OIG's Assistant Inspector General for Investigations
          (AlGI) that proposals or reports he submits to NSF do not contain plagiarized material for
          one year, commencing at the conclusion of the University's actions;48
      •   Require that the Subject submit assurances by a responsible official of his employer to
          OIG's AlGI, that proposals or reports submitted by the Subject to NSF do not contain
          plagiarized material for one year, commencing at the conclusion of the University's
          actions.49
                  '
47
   A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(l)(i)).
48
   Certification by an individual is a final action that is comparable to the fmal actions listed in 45 C.P.R. §689.3(a).
49
   Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).


                                                            8
 CONFIDENTIAL                                                                                            CONFIDENTIAL       ''


        o   Bar the Subject from serving NSF as a reviewer for one year, commencing on the date of
            NSF's finding of research misconduct; and       5°
        •   .Require the Subject to provide the· syllabus for the research integrity and plagiarism
            workshop he designed at the direction of the University. 51




50
     Prohibition from serving as a reviewer is a Group Til action (45 C.F.R. §689.3(a)(3)(ii)).
51
     Completing an ethics course is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a).


                                                              9
                               NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230

                                           MAY f   9 2011


    OFFICE OF THE
      DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED
                                                                    ")




       Re: ·. Notice of Research MisconduciDetermination ·


·Dear D r . -
                                            to the Natio~al Science Foundation (''NSF") entitle:d,
                                                                      In 2008, you submitted

                                      As documented in the attached Investigative
prepared by NSF's Office of Inspector General ("OIG"), these proposals contained plagiarized
m~~~.                        .                                       ,

                                  ~


Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification;
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, re.sults or words
without giving appropriate credit." 45'CFR § 689.l(a)(3). A finding of research misconduct · '
requires that:

       (1) There be a signifi<;ant departure frorii accepted practices·    df the relevant research
           ·community; and
                                             I                 '                             '


       (2) The research misconduct be committ~d intentionaliy, or lmowingly, or recklessly; and
       (3) The allegation be proven.by a preponderance of evidence.

45 CFR § 689.2(c).
                                                                                               Page2
          your proposals contained verbatim and paraphrased text and figures, as well as embedded
 .refe:ences, copied from several source documents. By submitting proposals to NSF that copied
  the tdeas or w?rds of another without adequate attribution, as described in the OIG Investigative
 Report, you misrepresented someone else's work as your own. Your conduct unquestionably
 constitutes plagiarism. I. therefore conclude that your actions meet the definition of"research
 misconduct" set forth in NSF's regulations.

          Pursuant to NSF regulations, the Foundation must also determ.ine whether to make a
  finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
. reviewing the Investigative Report, NSF has determined that, based o'n a preponderance of the
  evidence, your plagiarism was committed recklessly and constituted a significant departure from
  accepted practi~es of the relevant research community. I am, therefore, issuing a finding of
  research misconduct against you.

         NSF's regulations establish three categories of action.s (Group I, II, and Ill) that can be
taken in response to. a finding of misconduct. 45 CFR § 689.3(a). Group I acti~ns include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individua(obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certifY as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
                                  1
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the. severity of the sanction to hnpose for research misconduct, I have
considered the seriousness
                 .           of the misconduct' and our.
                                                         determination that it was committed
recklessly. I have also considered the fact that your misconduct was not part of a pattern, and had
no impact on the research record, as well as other relevant circumstances. 45 CFR § 689.3(b}. · ·

       After assessing the relevant facts and circumstances ofthis case, I am taking the
following actions against you:

        (1) Until April1~, 2013, you must provide certifications to ~e OI~ ~at anypr_oposal or
            ·report you submit to NSF as a PI or co-PI does nQt contam plagianzed, falsified, or
             fabricated material;     ·

        (2) Until Apri115, 2013, you must obtain, and provide to the OIG, assurances :rom a
            responsible official of your employer that any proposal or r~port you su?mtt to NSF as
            a PI or co-PI does not contain plagiarized, falsified, or fabncated matenal;
                 "                   '                                   .. .   .

        (3) You are prohibited from serving as an NSF reviewer, advisor, or consultant until May
            18,2012;and
                                                                                            Page 3
        (4) By July 1, 2011, you must provi4_e to the OIG a copy of the syllabus for the research
            integrity and plagiarism workshop you designed at the direction ofthe University.

         The certifications, assurances, and syllabus should be submitted in writing to OIG,
 Associate Inspe.ctor General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
 ,22230.

 Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter tq submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please c a l l - Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                    Wanda Ward
                                                    Senior Advisor to the Director



Enclosures:
Investigative Report
45 C.F.R. Part 689
